        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report

Review of the Department of
Energy's Plan for Obligating
Remaining Recovery Act Contract
and Grant Funding




OAS-RA-10-15                          August 2010

                        Additional Information
 Special Report on "Review of the Department of Energy's Plan for Obligating
            Remaining Recovery Act Contract and Grant Funding"
                               OAS-RA-10-15
                               August 6, 2010

Report OAS-RA-10-15, Review of the Department of Energy's Plan for Obligating
Remaining Recovery Act Contract and Grant Funding, was issued to the Secretary and the
Department's management on August 4, 2010.

On August 5, 2010, the Department announced the award of the so-called "FutureGen 2.0"
contract, using $1 billion of American Recovery and Reinvestment Act funding. Despite
our request, specific information pertinent to this action was not provided to the Office of
Inspector General prior to release of the audit report. These circumstances are described on
page 4 of the report in the paragraph referring to the Fossil Energy Program. The data is
highly relevant to the subject of Report OAS-RA-10-15.
                                  Department of Energy
                                    Washington, DC 20585

                                          August 4, 2010


MEMORANDUM FOR THE SECRETARY 


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Special Report on "Review of the Department's of
                          Energy's Plan for Obligating Remaining Recovery Act Contract and
                          Grant Funding"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), enacted in February
2009, provided over $36 billion to the Department of Energy (Department) for various science,
energy and environmental programs and initiatives. The majority of the funds ($32.7 billion)
were provided in the form of contract and grant authority that went to the Department's Offices
of Energy Efficiency and Renewable Energy (EERE), Environmental Management
(Environmental Management), Electricity Delivery and Energy Reliability (OE), Fossil Energy
(Fossil Energy), Science (Science), and Advanced Research Projects Agency - Energy (ARPA-
E). Under the terms of the Recovery Act, these funds must be obligated by September 30, 2010.

Obligating such a significant amount of funds by September 30, 2010, is a challenging task,
which has and will continue to require a significant, labor intensive effort by the Department.
Our Special Report on Selected Department of Energy Program Efforts to Implement the
American Recovery and Reinvestment Act (OAS-RA-10-03, December 2009), noted that the
obligation of funds and staffing levels represented risk areas that would require a focused effort
to overcome. Faced with tight deadlines to obligate unprecedented levels of funding, the
Department hired additional procurement officers and other personnel possessing the skills
necessary to meet its goals. Programs are working aggressively to ensure that resources are
deployed where they will be of greatest value. However, despite these efforts, two of the
Department's major projects have less than 50 percent of their Recovery Act funds obligated.
And, as of the date of this review, none of the programs has obligated 100 percent of their
respective funding.

With the deadline fast approaching, we initiated this audit to determine whether the Department
had developed effective plans to obligate remaining Recovery Act funding in accordance with
required timeframes.

OBSERVATIONS AND CONCLUSIONS

Our review disclosed that as of July 9, 2010, the Department had obligated $29.3 billion, or 90
percent, of the $32.7 billion that was required to be obligated by the September 30, 2010,
Recovery Act deadline. While such progress is laudable, $3.4 billion remains to be obligated in:
less than three months, mostly in the form of financial assistance grants, cooperative agreements,
and contracts. The Department believes its plan is sufficient to accomplish this task. However, a
number of issues remain to be addressed – many of which could impede its ability to meet the
deadline. We are particularly concerned that delays in the award process for two major Fossil
Energy projects could result in the expiration of funds before all awards are made.

                                    Monitoring & Oversight

Department officials told us that execution of the plan for ensuring that obligations are made
requires considerable effort. The Department's Recovery Act Team and Office of Chief
Financial Officer (OCFO) have primary responsibility for monitoring and oversight and will
monitor and oversee progress made by the programs. These officials are also poised to identify
and attempt to resolve any obstacles program officials may face in obligating the remaining
Recovery Act funds on time. Since passage of the Act, the Recovery Act Team indicated that it
had coordinated the implementation of Recovery Act efforts across the Department and had put
in place two key management structures to regularly monitor progress:

   	 Weekly tag-up meetings with senior program and functional officials to share best

      practices and review project level obligations, payments and milestones; and, 


   	 Weekly Recovery Program Reviews to provide insight on the financial and operational
      elements of a program office's projects.

The Recovery Act Team reported that it had worked with the OCFO and program offices to
develop a series of standardized financial and project reports to provide a single source of
transparent and consistent financial information. All reports were featured on an internally
available web site known as the Department's iPortal dashboards, a system that extracts and
aggregates data from the Department's financial information systems which are then used to
track the daily status of obligations, spending, milestones and performance metrics. Department
officials reported that this data had been instrumental in managing programs and addressing
issues as they occurred. In addition, the OCFO had compiled an "exposed funds" report
detailing how much each program has left to obligate, any upcoming selections, and planned
dates, provided by the programs, to obligate the funds.

In May 2010, the OCFO issued American Recovery and Reinvestment Act of 2009 End of Year
Guidance to provide Fiscal Year (FY) 2010 year-end legal, financial and procurement guidance
related to Recovery Act funding to heads of departmental elements. This guidance was issued
with the stated purpose of ensuring that the Department responsibly obligates the Recovery Act
funding expiring at the end of FY 2010, as well as providing guidance in the management of
Recovery Act funds after 2010. The guidance emphasized the need for program offices to
prioritize their remaining obligations and established milestones for procurement actions, given
practical limitations on the Department's ability to process new obligations through the
procurement and accounting systems while maintaining adequate internal controls.

The Department's Office of Risk Management (Risk Management) within the OCFO also issued
Department-wide guidance for risk management efforts. Risk Management has worked with
program officials to refine program plans and risk mitigation strategies. Specifically, Risk

                                                2

Management worked through a detailed process to identify high risk recipients and to ensure
appropriate management direction and oversight resources are directed to these high risk
recipients.

Additional guidance and contracting terms were implemented to assist with awarding funds for
Recovery Act activities. To aid each of the Department's programs, the Office of Procurement

and Assistance Management (Procurement) developed guidance on funding acquisition and
financial assistance activities with Recovery Act appropriations to help maximize the effective
use and management of those funds. Procurement also developed special contractual terms and
conditions for programs to use to ensure project compliance with new Recovery Act
requirements.

                                                Program Plans

We found that each of the Department's participating program offices had developed or were
working on internal plans to obligate its remaining funds by September 30, 2010. We found, as
well, that 10 of the Department's Recovery Act projects were responsible for almost 80 percent
($2.7 billion) of the remaining $3.4 billion to be obligated. The following chart represents their
status as shown in iPortal on July 9, 2010:

                              Top Ten Projects with Unobligated Balances
    rogram
     Office           Project Description        Spend Plan1        Obligated        % Obligated    Unobligated
Fossil Energy   Carbon Capture and Storage       $1,000,000,000                 $0       0%        $1,000,000,000
Fossil Energy   Industrial Carbon Capture and
                Storage Applications             $1,517,838,166    $671,154,376         44%         $846,683,790
EERE            Weatherization Assistance        $4,975,000,000   $4,797,642,337        96%         $177,357,663
ARPA-E          Advanced Research Projects
                Agency - Energy                   $377,556,000     $221,764,467         59%         $155,791,533
EERE            EE Conservation Block Grant
                Program                          $2,803,260,000   $2,692,155,543        96%         $111,104,457
Environmental   SRS D&D P & R Areas
Management      Recovery Act Project              $478,400,000     $379,560,291         79%          $98,839,709
Environmental   SRS D&D M & D Areas
Management      Recovery Act Project              $104,000,000      $20,951,570         20%          $83,048,430
Science         SBIR/STTR                          $95,750,452      $18,682,716         20%          $77,067,736
Environmental   Hanford Central Plateau D&D
Management      Recovery Act Project              $701,516,000     $625,115,000         89%          $76,401,000
EERE            Advanced Building Systems          $80,987,319      $12,681,915         16%          $68,305,404


Total                                           $12,134,307,937   $9,439,708,215                   $2,694,599,722




1
  Reallocations pending OMB apportionments as of July 23, 2010, to other Department Recovery Act projects will
reduce spend plan amounts to $11,890,940,859 for the projects included in this chart.
                                                        3
While individual program officials told us that they either had developed or were working
on plans to ensure that all funds are obligated, as required, our review disclosed some
significant execution risks. Specifically:
   	   Fossil Energy – Fossil Energy officials asserted that the Department had a plan to
        obligate the remaining $1.8 billion in Carbon Capture and Storage and Industrial
        Carbon Capture and Storage Applications project funds. However, they would not
        share any details of the plans with us because of what they described as sensitive
        procurement issues that could jeopardize the approval, negotiation and award of
        these projects. These officials indicated that previously planned use of Recovery
        Act funds for these projects has changed due to technological and economic
        complexities. As we noted in our Special Report on Selected Department of
        Energy Program Efforts to Implement the American Recovery and Reinvestment
        Act (OAS-RA-10-03, December 2009), related problems in the past have
        adversely impacted the Department's ability to successfully execute similar
        projects. Recovery Act Team officials indicated that Fossil Energy continues to
        face risks in meeting its obligations deadline. Relevant major projects include:
            The $1 billion Carbon Capture and Storage project was to partially fund
             construction of the first commercial scale, fully integrated, carbon capture
             and sequestration project in the country. The Department received the
             renewal application for the project in March 2010 and had originally
             planned to obligate the funds in September 2010 pending review and
             decision. In late July 2010, the final decision on this project was still
             pending, but the program and the Recovery Act Team indicated that they
             were confident that the funds would be fully obligated by the September
             30, 2010, deadline as long as a decision on a path forward is reached no
             later than August 13, 2010.
            The $847 million in remaining Industrial Carbon Capture and Storage
             Applications project funds were to be used to complete phase 2 design,
             construction and operation of several of the most promising projects that
             completed phase 1 activities in May 2010. In June 2010, the Department
             selected three projects from phase 1 to enter into phase 2. Recovery Act
             awards for these three projects totaled $612 million, leaving $847 million
             currently unobligated. In July 2010, the Department selected six
             additional projects and plans to make awards totaling $106 million by mid-
             September 2010. Recovery Act Team officials indicated that the project's
             phase 2 selection had fewer applicants than planned.
   	 EERE – Three Recovery Act projects remain with significant funds to be 

      obligated. 

            The Energy Efficiency and Conservation Block Grants Program includes
             awards for both formula grants and competitive grants. The majority of the
             formula grants have already been obligated and EERE plans to award the
             remaining $41 million by the middle of September 2010. EERE recently
             selected awardees for the competitive grants and plans to award and
             obligate $63 million of these funds and $7 million in additional technical
             assistance funds by the end of July 2010.
                                            4

            The Weatherization Assistance Program (WAP) has the majority of its
             unobligated funds residing in two projects – Sustainable Energy Resources for
             Consumers Grants and Training and Technical Assistance. EERE plans to make
             awards to the Weatherization Training Centers by mid-August 2010. EERE also
             plans to obligate the remaining Sustainable Energy funds through amendments to
             existing awards within WAP by the end of August 2010.
            The Advanced Building Systems project will fund research focused on the
             systems design, integration, and control of buildings to achieve energy-efficient
             and eventually net zero-energy buildings. In early June 2010, EERE selected 45
             potential recipients to receive $68 million in funds. EERE has made 15 awards
             under this project and plans to award all remaining funds in early August 2010.

   	 ARPA-E – ARPA-E has completed the selection process for all three rounds of its
      Recovery Act Funding Opportunity Announcements (FOA) and plans to award all
      remaining funds by late August 2010. Specifically, ARPA-E plans to finalize awards for
      more than 40 projects which were selected from its second and third (final) rounds of
      FOAs. Round three selections were announced in mid-July and awards will include $92
      million in Recovery Act funds. ARPA-E anticipates having about $15 million remaining
      after the third round of FOAs and plans to award these funds by late August 2010 to
      projects that are currently on a wait list.

   	 Environmental Management – Requests were sent to the Office of Management and
      Budget (OMB) on July 8, 2010, to reapportion the majority of remaining unobligated
      funds as a result of cost variances in existing Recovery Act contracts. According to a
      Department official, OMB approved the reapportionment on July 29, 2010; however,
      Environmental Management had not obligated the funds as of August 3, 2010.

   	 Science – Science has completed the selection of its grant recipients under phase II of the
      Small Business Innovation Research/Small Business Technology Transfer Research
      project. According to a Department official, Science sent requisitions for the awards to
      its Chicago procurement office on August 3, 2010. The Chicago procurement office
      plans to finalize these awards and obligate the funds by the end of September 2010.

Each of the program offices we spoke with told us that steps are being taken to ensure that
Recovery Act funds are obligated by the September 30, 2010, deadline. Additionally,
Department officials stated that many staff members have been working exceptionally long hours
to accomplish all of the necessary tasks. Some offices have hired support staff; this takes the
form of contracting out support work, hiring college students to perform administrative tasks on
their breaks from school, and hiring career interns to supplement the full-time staff. Program
offices have also been working together to guarantee that resources, notably procurement
personnel, are available to those offices with the greatest workload. For all new selections,
programs are using SWAT teams to ensure expeditious obligation of funds. For example, a
Department official stated that the Department's attorneys and environmental compliance officers
are working directly with applicants to expedite environmental impact determinations.



                                               5

                                          Risk Mitigation

The Department developed a plan to obligate remaining Recovery Act funds in an
expeditious manner in order to meet statutory deadlines. However, we noted that the
effort to meet current deadlines must overcome a number of challenges and risks. To
its credit, the Department has recognized these challenges, has concluded that its plan is
sufficient to address the risks, and is prepared to obligate remaining funds prior to
expiration. While we respect the intensity of the Department's work effort, we have
identified significant challenges that must be addressed if the September 30, 2010,
deadline is to be met:
   	 Selections for many projects still need to be made and there may not be sufficient 

      time or resources to complete negotiations and finalize awards. For example, 

      Fossil Energy has not yet completed its selection process for the $1 billion Carbon 

      Capture and Storage project and for $741 million in Industrial Carbon Capture 

      and Storage Applications project funds. In addition, we noted that, in a 

      Department-wide tracking report as of July 19, 2010, there were 40 potential 

      awardees for OE projects that had been selected but not obligated for more than 

      90 days; indicating that the responsible program office has been in negotiations 

      with the selectee for the entire time period. If selections made after June 2010 

      require more than 90 days to negotiate, they will not be completed and therefore 

      obligated by the September 30, 2010, deadline. 


   	 Regulatory approval is needed for a number of previously awarded Recovery Act projects
      to move forward. As the Department's programs have no control over the outcome of
      regulatory reviews, it is possible that some obligations could fall through in the coming
      months, not allowing the Department sufficient time to re-obligate funds. For example, a
      local public service commission recently denied approval of an application submitted by
      a Recovery Act recipient to install equipment provided through the Smart Grid
      Investment Grant Program. OE officials stated that while the recipient's efforts to obtain
      regulatory approval are ongoing, OE may need to quickly re-obligate $200 million in
      Recovery Act funds if approval is not received.

   	 The quality of forthcoming proposals submitted to the Department by 

      inexperienced recipients may be unacceptable and some programs may have little 

      time to assist recipients in correcting deficiencies. The Recovery Act has 

      significantly increased funding in areas that had received little funding in recent 

      years and has attracted prospective recipients that have had little or no experience 

      in preparing proposals for Federal awards. 

Finally, the inability of recipients to meet terms and conditions placed on awards by the
Department either to protect the government's interest or to meet statutory requirements could
result in cancellation of awards or cause delays in spending. Specifically, depending on how the
agreements are structured, if recipients cannot meet award conditions in the time required, the
Department may have to cancel the award and de-obligate the funds. If the awards are cancelled
after September 30, 2010, the funds expire and are not available for obligations on new projects
which could diminish the stimulative effectiveness of the award. One procurement official
informed us that conditions on obligations may be prevalent as efforts are increased to obligate
all of the funding by the deadline. Most conditions are in place for one of two reasons:

                                                 6

recipients who are new to the government need to have an audit performed to ensure their
accounting systems meet standards; and, a number of projects need to comply with National
Environmental Policy Act regulations before Recovery Act funds can be spent. As we have
noted in various reports on this subject, obtaining this regulatory approval is often time-
consuming.

We consider all of these concerns to be material in nature. However, nothing came to
our attention to indicate that the Department's plan to obligate remaining Recovery Act
funding by September 30, 2010, will not be effective, at least for most of its funds at
risk. That said, we are especially concerned that delays in the award process for the
Carbon Capture and Storage and Industrial Carbon Capture and Storage Applications
projects could result in the expiration of funds before all awards are made. Continued
monitoring and oversight, with a particular focus on significant challenges and risks,
should help ensure that most Recovery Act funds are obligated on time.

SUGGESTED ACTIONS

To address the risks to obligating Recovery Act funds by the September 30, 2010, deadline, we
suggest that the Recovery Act Team and Office of Chief Financial Officer intensify planned
monitoring and oversight activities with a particular concentration on projects: (1) experiencing
delays in the selection of financial assistance awardees; (2) containing conditional awards; and,
(3) requiring regulatory approval.

MANAGEMENT COMMENTS

Management expressed its view that the overall content and tone of the report were fair and
accurate, and that our suggested actions were logical and consistent with current plans to address
risks in obligating the remaining Recovery Act contract and grant funding.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Chief Financial Officer
    Senior Advisor, Office of American Recovery and Reinvestment Act
    Assistant Secretary, Office of Energy Efficiency and Renewable Energy, EE-1
    Assistant Secretary, Office of Environmental Management, EM-1
    Assistant Secretary, Office of Electricity Delivery and Energy Reliability, OE-1
    Assistant Secretary, Office of Fossil Energy, FE-1
    Director, Office of Science, SC-1
    Director, Advanced Research Projects Agency – Energy, AR-1




                                                7

                                                                             Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine if the Department of Energy (Department) had developed effective plans to
obligate the remaining American Recovery and Reinvestment Act of 2009 (Recovery Act)
funding in accordance with required timeframes.

SCOPE

The review was performed in June and July 2010 at Department Headquarters in Washington,
DC and Germantown, Maryland.

METHODOLOGY

To accomplish our objective, we:

   	 Reviewed the Recovery Act legislation and determined Recovery Act projects with a
      September 30, 2010, funds expiration date;

   	 Reviewed Departmental policies and procedures related to obligating Recovery Act
      funds;

   	 Interviewed officials from Headquarters Office of Chief Financial Officer, Recovery Act
      Team and Office of Management and procurement officials from the National Energy
      Technology Laboratory to obtain the Department's plans for obligating Recovery Act
      funds and to determine monitoring and oversight procedures and risk mitigation
      strategies;

   	 Analyzed obligations data in reports produced from the Department's iPortal system and
      selected ten Recovery Act projects with the most unobligated funds as of July 9, 2010;

   	 Interviewed officials from Offices of Energy Efficiency and Renewable Energy,
      Environmental Management, Electricity Delivery and Energy Reliability, Fossil Energy,
      Science, and Advanced Research Projects Agency – Energy to obtain program plans for
      obligating Recovery Act funds for the selected projects and determine risk mitigation
      strategies; and,

   	 Assessed the reliability of computer processed data in iPortal related to Recovery Act
      obligations and found it to be sufficiently reliable.

We discussed the report with officials from the Office of the Chief Financial Officer and the
Recovery Act Team on August 3, 2010.




                                                8

                                                                                               Attachment 2




                                             July 29, 2010



MEMORANDUM FOR:                 GREGORY H. FRIEDMAN
                                INSPECTOR GENERAL


FROM                             MATT ROGERS
                                 SENIOR ACCOUNTABLE OFFICIAL, RECOVERY ACT
                                 IMPLEMENT A TION

SUBJECT:                         Comments to Draft Report - The Department's Plan for Obligating
                                 Remaining Recovery Act Funding (AIORA063)

Thank you for the opportunity to review your draft report. We appreciate your recognition ofthe progress
made by the Department in obligating Recovery Act funds and your identification of risks to obligating
the remaining funds. We found the overall content and tone of the report fair and accurate. Your
suggested actions are logical and consistent with current plans to address risks in obligating the remaining
Recovery Act contract and grant funding.

While the Department is in general agreement with the report and its conclusions, we have provided
comments on specific language within the report to enhance its accuracy and provide additional context.

Attachment




                                                ~--




        visor for Recovery Act Implementation
Depart ent of Energy




                                                      9
                                                                IG Report No. OAS-RA-10-15


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

   1.	 What additional background information about the selection, scheduling, scope, or procedures of
       the audit or inspection would have been helpful to the reader in understanding this report?

   2.	 What additional information related to findings and recommendations could have been included
       in this report to assist management in implementing corrective actions?

   3.	 What format, stylistic, or organizational changes might have made this report's overall message
       more clear to the reader?

   4.	 What additional actions could the Office of Inspector General have taken on the issues discussed
       in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name	                                            Date

Telephone 	                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                 Office of Inspector General (IG-1) 

                                       Department of Energy 

                                      Washington, DC 20585 


                                    ATTN: Customer Relations 


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at 202-586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
